No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
SABRINA ALEXANDER WEIGHTMAN,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment of the United States District Court for the Northern District
of Texas
Appendix C Judgment of Revocation and Sentence of the United States District
Court for the Northern District of Texas

APPENDIX A

Case: 20-10192

Document: 00515506508

Page: 1

Case 3:17-cr-00337-K Document 68 Filed 07/28/20

Date Filed: 07/28/2020

Page 1 of 2 PageID 304

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 20-10192
Summary Calendar

FILED
July 6, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
SABRINA ALEXANDER WEIGHTMAN,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:17-CR-337-1
Before JOLLY, JONES, and SOUTHWICK, Circuit Judges.
PER CURIAM: *
Sabrina Alexander Weightman appeals the judgment on revocation of
her supervised release, arguing for the first time on appeal that the district
court erred by applying 18 U.S.C. § 3583(g). That statute makes revocation of
supervised release mandatory when a defendant violates the conditions of
supervised release by unlawfully possessing a controlled substance. Relying
on United States v. Haymond, 139 S. Ct. 2369 (2019), Weightman contends

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 20-10192

Document: 00515506508

Page: 2

Case 3:17-cr-00337-K Document 68 Filed 07/28/20

No. 20-10192

Date Filed: 07/28/2020

Page 2 of 2 PageID 305

that Section 3583(g) is unconstitutional because it requires revocation of a
term of supervised release and imposition of a term of imprisonment without
affording the defendant the constitutionally guaranteed right to a jury trial,
which requires proof beyond a reasonable doubt. Weightman concedes that
her plain-error challenge is foreclosed under United States v. Badgett, 957 F.3d
536 (5th Cir. 2020), but she raises the issue to preserve it for further review.
The Government has filed an unopposed motion for summary
affirmance, alternatively requesting an extension of time to file its brief.
Summary affirmance is proper when, among other instances, “the position of
one of the parties is clearly right as a matter of law so that there can be no
substantial question as to the outcome of the case.” Groendyke Transp., Inc.
v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
The Supreme Court held in Haymond that revoking supervised release
and imposing mandatory minimum sentence pursuant to 18 U.S.C. § 3583(k),
based on judge-made findings by a preponderance of the evidence, violated due
process and the right to a trial by jury. See Haymond, 139 S. Ct. at 2378–83.
Unlike Section 3583(k), which mandates a minimum of five years for certain
offenses such as possession of child pornography, Section 3583(g) does not
provide for a mandatory minimum sentence based on judge-found facts. See
§ 3583(g), (k). Further, the Haymond plurality emphasized that its decision
was limited to Section 3583(k). See Haymond, 139 S. Ct. at 2382 n.7, 2383. In
Badgett, we held that because Haymond had not been extended to Section
3583(g) revocations, the district court did not commit clear or obvious error in
applying the statute. See Badgett, 957 F.3d at 540–41.
The Government’s motion for summary affirmance is GRANTED, and its
alternative motion for extension of time is DENIED. The judgment of the
district court is AFFIRMED.

2

APPENDIX B

Case 3:17-cr-00337-K Document 37 Filed 12/05/17

Page 1 of 8 PageID 86


United States District Court
Northern District of Texas Dallas Division

§
§
§
§
§
§
§
§

UNITED STATES OF AMERICA
v.
SABRINA ALEXANDER WEIGHTMAN

JUDGMENT IN A CRIMINAL CASE

Case Number: 3:17-CR-00337-K (01)
USM Number: 55463-177
Laura S Harper
Defendant’s Attorney

THE DEFENDANT:
‫ ܆‬pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S. Magistrate

‫ ܈‬Judge, which was accepted by the court.
‫܆‬
‫܆‬

To the One Count Information, filed on July 5, 2017.

pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense

Offense Ended

Count

18 U.S.C. § 1708 Possession of Stolen Mail

02/24/2017

1

The defendant is sentenced as provided in pages 2 through 8 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

‫ ܆‬The defendant has been found not guilty on count(s)
‫ ܆‬Count(s) ‫ ܆‬is ‫܆‬are dismissed on the motion of the United States.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

November 28, 2017
Date of Imposition of Judgment

Signature of Judge

Ed Kinkeade, United States District Judge
Name and Title of Judge

December 5, 2017
Date

Case 3:17-cr-00337-K Document 37 Filed 12/05/17

Page 2 of 8 PageID 87

AO 245B (Rev. TXN 9/17) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 2 of 8

SABRINA ALEXANDER WEIGHTMAN
3:17-CR-00337-K (01)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:

THIRTY-SIX (36) Months. This sentence shall run concurrently with any sentence imposed in Case No.
F-1657894, in the 292nd District Court of Dallas County.
The Defendant shall receive credit for time served in federal custody prior to sentencing.

‫ ܈‬The court makes the following recommendations to the Bureau of Prisons:
The Court recommends that the defendant be allowed to serve her sentence at FMC Carswell,
Fort Worth, Texas. The Court further recommends to the Federal Bureau of Prisons, that the defendant
be allowed to participate in the Residential Drug Abuse Program and any mental health treatment
program offered by the Federal Bureau of Prisons, if eligible.


‫ ܈‬The defendant is remanded to the custody of the United States Marshal.
‫ ܆‬The defendant shall surrender to the United States Marshal for this district:


‫ ܆‬at

‫܆‬

a.m.

‫܆‬

p.m.

on

‫ ܆‬as notified by the United States Marshal.
‫ ܆‬The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
‫ ܆‬before 2 p.m. on
‫ ܆‬as notified by the United States Marshal.
‫ ܆‬as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on

at

to

, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 3:17-cr-00337-K Document 37 Filed 12/05/17

Page 3 of 8 PageID 88

AO 245B (Rev. TXN 9/17) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 3 of 8

SABRINA ALEXANDER WEIGHTMAN
3:17-CR-00337-K (01)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: TWO (2) years.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

‫ ܆‬The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)
4.

‫ ܆‬You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)

‫ ܈‬You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
6. ‫ ܆‬You must comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16901, et
5.

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
7.

‫ ܆‬You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

Case 3:17-cr-00337-K Document 37 Filed 12/05/17

Page 4 of 8 PageID 89

AO 245B (Rev. TXN 9/17) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 4 of 8

SABRINA ALEXANDER WEIGHTMAN
3:17-CR-00337-K (01)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txnp.uscourts.gov.
Defendant’s Signature

Date

Case 3:17-cr-00337-K Document 37 Filed 12/05/17

Page 5 of 8 PageID 90

AO 245B (Rev. TXN 9/17) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 5 of 8

SABRINA ALEXANDER WEIGHTMAN
3:17-CR-00337-K (01)

SPECIAL CONDITIONS OF SUPERVISION
Pursuant to the Mandatory Victims Restitution Act of 1996, the defendant is ordered to
pay restitution in the amount of $5,421.51, payable to the U.S. District Clerk, 1100
Commerce Street, Room 1452, Dallas, Texas 75242. Restitution shall be payable
immediately and any unpaid balance shall be payable during incarceration. Restitution
shall be disbursed to:
American Express
1500 Northwest 136th Avenue
Sunrise, FL 33323
$484.12
Re: 3:17-CR-337-K
Chase Bank USA N.A.
150 West University Drive AXI-5719
Tempe, AZ 85281
$1,031.69
Re: 3:17-CR-337-K
Citibank
P.O. Box 6500
Sioux Falls, SD 57117
$3,905.70
Re: 3:17-CR-337-K
If upon commencement of the term of supervised release any part of the restitution
remains unpaid, the defendant shall make payments on such unpaid balance in monthly
installments of not less than 10 percent of the defendant's gross monthly income, or at a
rate of not less than $50 per month, whichever is greater. Payment shall begin no later
than 60 days after the defendant's release from confinement and shall continue each
month thereafter until the balance is paid in full. In addition, at least 50 percent of the
receipts received from gifts, tax returns, inheritances, bonuses, lawsuit awards, and any
other receipt of money shall be paid toward the unpaid balance within 15 days of receipt.
This payment plan shall not affect the ability of the United States to immediately collect
payment in full through garnishment, the Treasury Offset Program, the Inmate Financial
Responsibility Program, the Federal Debt Collection Procedures Act of 1990 or any other
means available under federal or state law. Furthermore, it is ordered that interest on the
unpaid balance is waived pursuant to 18 U.S.C. § 3612(f)(3).

Case 3:17-cr-00337-K Document 37 Filed 12/05/17

Page 6 of 8 PageID 91

AO 245B (Rev. TXN 9/17) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 6 of 8

SABRINA ALEXANDER WEIGHTMAN
3:17-CR-00337-K (01)

SPECIAL CONDITIONS OF SUPERVISION CONTINUED
The defendant shall pay any remaining balance of restitution in the amount of $5,421.51,
as set out in this Judgment.
The defendant shall provide to the probation officer complete access to all business and
personal financial information.
The defendant shall not incur new credit charges or open additional lines of credit without
approval of the probation officer unless the probation officer makes a determination that
the defendant has fully satisfied the $5,421.51 obligation.
The defendant shall participate in mental health treatment services as directed by the
probation officer until successfully discharged. These services may include medications
prescribed by a licensed physician. The defendant shall contribute to the costs of services
rendered (copayment) at a rate of at least $10 per month.
The defendant shall participate in a program (inpatient and/or outpatient) approved by
the U.S. Probation Office for treatment of narcotic, drug, or alcohol dependency, which
will include testing for the detection of substance use or abuse. The defendant shall
abstain from the use of alcohol and/or all other intoxicants during and after completion of
treatment. The defendant shall contribute to the costs of services rendered (copayment) at
a rate of at least $10 per month.

Case 3:17-cr-00337-K Document 37 Filed 12/05/17

Page 7 of 8 PageID 92

AO 245B (Rev. TXN 9/17) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 7 of 8

SABRINA ALEXANDER WEIGHTMAN
3:17-CR-00337-K (01)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

TOTALS

Assessment
$100.00

JVTA Assessment*
$.00

Fine
$.00

Restitution
$5,421.51

‫ ܆‬The determination of restitution is deferred until

An Amended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
‫܈‬The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18
U.S.C. § 3664(i), all nonfederal victims must be paid before the United States is paid.

American Express
1500 Northwest 136th Avenue
Sunrise, FL 33323
$484.12
Re: 3:17-CR-337-K
Chase Bank USA N.A.
150 West University Drive AXI-5719
Tempe, AZ 85281
$1,031.69
Re: 3:17-CR-337-K
Citibank
P.O. Box 6500
Sioux Falls, SD 57117
$3,905.70
Re: 3:17-CR-337-K

‫ ܆‬Restitution amount ordered pursuant to plea agreement $
‫ ܆‬The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
‫܈‬

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
‫ ܈‬the interest requirement is waived for the
‫ ܆‬fine
‫ ܈‬restitution

‫ ܆‬the interest requirement for the

‫ ܆‬fine

‫܆‬

restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

Case 3:17-cr-00337-K Document 37 Filed 12/05/17

Page 8 of 8 PageID 93

AO 245B (Rev. TXN 9/17) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 8 of 8

SABRINA ALEXANDER WEIGHTMAN
3:17-CR-00337-K (01)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

‫ ܆‬Lump sum payments of $

due immediately, balance due

‫ ܆‬not later than
‫ ܆‬in accordance

, or

‫܆‬

C,

‫܆‬

D,

B

‫ ܈‬Payment to begin immediately (may be combined with

C

‫ ܆‬Payment in equal

E, or

‫܆‬

F below; or

‫܆‬

C,

‫܆‬

D, or

(e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence

D

‫܆‬

‫܆‬

F below); or

over a period of

(e.g., 30 or 60 days) after the date of this judgment; or

‫ ܈‬Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of at least $50.00 over a period of
XXXXXXX (e.g., months or years), to commence 60 days (e.g., 30 or 60 days) after release from imprisonment to a
term of supervision; or

E

‫ ܆‬Payment during the term of supervised release will commence within

F

‫ ܈‬Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

It is ordered that the Defendant shall pay to the United States a special assessment of $100.00 for Count 1 which
shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

‫ ܆‬Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

‫ ܆‬Defendant shall receive credit on her restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.

‫ ܆‬The defendant shall pay the cost of prosecution.
‫ ܆‬The defendant shall pay the following court cost(s):
‫ ܆‬The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

APPENDIX C


Case 3:17-cr-00337-K Document 61 Filed 02/12/20

Page 1 of 5 PageID 262

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE
(For Revocation of Probation or Supervised Release)

v.
SABRINA ALEXANDER WEIGHTMAN

Case Number: 3:17-CR-00337-K (01)
USM Number:
Gabriela Vega
Defendant’s Attorney

THE DEFENDANT:
‫ ܈‬admitted guilt to violation of condition(s)
‫ ܆‬was found in violation of condition(s)

Roman Numeral I, II, III. IV, V, and VII of the Petition for Offender
Under Supervision filed on 1/27/2020, and Roman Numeral I of the
Petition for Offender Under Supervision filed on 2/03/2020
of the term of supervision.
after denial of guilt.

The defendant is adjudicated guilty of these violations: The defendant pleaded true to violations Roman Numeral I, II, III. IV, V,
and VII of the Petition for Offender Under Supervision filed on 1/27/2020, and Roman Numeral I of the Petition for Offender
Under Supervision filed on 2/03/2020 of the term of supervision.

The defendant is sentenced as provided in pages 2 through 5 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.
The defendant has not violated condition(s)

‫ ܆‬condition.

and is discharged as to such violation(s)

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

Last Four Digits of Defendant’s Soc. Sec.

6225

February 12, 2020
Date of Imposition of Judgment

Defendant’s Year of Birth:

1971
Signature of Judge

City and State of Defendant’s Residence:
Mansfield, Texas

ED KINKEADE
UNITED STATES DISTRICT JUDGE
Name and Title of Judge
February 12, 2020
Date

Case 3:17-cr-00337-K Document 61 Filed 02/12/20

Page 2 of 5 PageID 263

AO 245D (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 2 of 6

SABRINA ALEXANDER WEIGHTMAN
3:17-CR-00337-K (01)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:

TWELVE (12) Months.
‫ ܈‬The court makes the following recommendations to the Bureau of Prisons:
The Court recommends that the defendant be allowed to serve her sentence at FMC Fort Worth,
Fort Worth, Texas.
‫ ܈‬The defendant is remanded to the custody of the United States Marshal.
‫ ܆‬The defendant shall surrender to the United States Marshal for this district:
‫ ܆‬at

‫܆‬

‫܆‬

a.m.

p.m.

on

‫ ܆‬as notified by the United States Marshal.
‫ ܆‬The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
‫ ܆‬before 2 p.m. on
‫ ܆‬as notified by the United States Marshal.
‫ ܆‬as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on

at

to

, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 3:17-cr-00337-K Document 61 Filed 02/12/20

Page 3 of 5 PageID 264

AO 245D (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 3 of 6

SABRINA ALEXANDER WEIGHTMAN
3:17-CR-00337-K (01)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: TWO (2) years.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

‫ ܆‬The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)
4.

‫ ܆‬You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)

‫ ܆‬You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
6. ‫ ܆‬You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
5.

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
7.

‫ ܆‬You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

Case 3:17-cr-00337-K Document 61 Filed 02/12/20

Page 4 of 5 PageID 265

AO 245D (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 4 of 6

SABRINA ALEXANDER WEIGHTMAN
3:17-CR-00337-K (01)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txnp.uscourts.gov.
Defendant’s Signature

Date

Case 3:17-cr-00337-K Document 61 Filed 02/12/20

Page 5 of 5 PageID 266

AO 245D (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 5 of 6

SABRINA ALEXANDER WEIGHTMAN
3:17-CR-00337-K (01)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall pay any remaining balance of restitution in the amount of $5,421.51, as
set out in the Judgment imposed on November 28, 2017.
The defendant shall provide to the probation officer complete access to all business and
personal financial information.
The defendant shall not incur new credit charges or open additional lines of credit without
approval of the probation officer unless the probation officer makes a determination that
the defendant has fully satisfied the $5,421.51 obligation.
The defendant shall participate in mental health treatment services as directed by the
probation officer until successfully discharged. These services may include medications
prescribed by a licensed physician. The defendant shall contribute to the costs of services
rendered (copayment) at a rate of at least $10 per month.
The defendant shall participate in a program (inpatient and/or outpatient) approved by the
U.S. Probation Office for treatment of narcotic, drug, or alcohol dependency, which will
include testing for the detection of substance use or abuse. The defendant shall abstain from
the use of alcohol and/or all other intoxicants during and after completion of treatment. The
defendant shall contribute to the costs of services rendered (copayment) at a rate of at least
$10 per month.

